Depafiment of Health and Human Services
         OFFICE OF
   INSPECTOR GENERAL




VULNERABILITIES IN MEDICAID ASSET
           VERIFICATION
                      OFFICE OF INSPECTOR GEIW3W

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide ne~ork of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Semic=, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secreta~ of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficienq throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations .of.wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, a civil money penalties. The 01 afso oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUA~ON                   AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efllciency, vulnerability,
and effectiveness of departmental programs. The report was prepared in the Kansas City
regional office under the direction of Jim Wolf, Regional Inspector General. Project staff
include:

Kansas City                                         Headquarters

Dennis Tharp, Project Leader
                       Penny Thompson, Branch Chief
Tim DoId, Team Leader
                              Jennifer btico, Program Specialist
Perry Seaton, Team Leader

Linda Paddock, Program Assistant




 To obtain a copy of this repo~ call the Kansas City Regional Offi= at (816) 426-3697.
              EXECUTIVE                           SUMMARY

PURPOSE

To describe States’ Medicaid long term care eligibility systems, asset verification
processes and their fraud referral techniques, and identify potential vulnerabilities   in
these systems.

BACKGROUND

Within the Health Care Financing Administration (HCFA) guidelines, each State has

its own Medicaid rules and provisions governing Medicaid long term care eligibility.

The States submit a State Plan that, when approved by HCF~ provides the basis for

payment of Federal funds to cover at least half of the expenditures incurred by the

State in providing medical assistance and administering programs.


Medicaid coverage of long term care costs is based upon a needs test where an

individual has limited assets. Some individuals may be motivated to transfer their

assets to other family members to avoid the requirement to use them to finance their

long term care expenses.


To determine what States are doing to determine eligibility and detect fraud regarding

assets, we conducted a mail survey of the 50 State Medicaid agencies in late 1993. We

also selected five States in the spring of 1994 to visit based on information and

materials received from the mail survey and our analysis of that information. At these

States we intemiewed Medicaid policy staff and State fraud investigators to

supplement information from the surveys.


FINDINGS

Most States Rely Only on Readily Available Sources for Asset Verification

We found nearly all States veri~ checking and savings accounts, pay stubs and
insurance policies of the Medicaid long term care applicant, but States vary on
requesting income tax returns and other types of financial information. Medicaid
eligibility staff allege they do not have adequate time to effectively ascertain the extent
of all potential assets of Medicaid applicants.

Thirty of 50 States have Medicaid fraud hotlines. Although most States do not
routinely check applications against hot line complaints, half the States who have them
believe that they may facilitate an initial investigation to verfi the validity of a
possible transfer or concealment.

Thirty-eight States have specific Medicaid long term care fraud penalties for the non-
reporting of resources. In general, we found that prosecution of medical assistance

                                              ,
fraud is a low priority for States, and that Medicaid applicant/beneficiary fraud is
identified in less than 1 percent of cases. This is due to consideration of the
applicant’s age, the difficulty of proving intent, and the low dollar amounts involved.

HCFA Has Worked in Partnership with State Medicaid Agencies to Improve Asset
Verification

The HCFA has assisted States in improving asset verification. The HCFA has actively
monitored States’ activities and progress in identifying assets and sharing best practices
of asset verification.

RECOMMENDATIONS

HCFA should continue to work in partnership with States to promote:

Comprehensive Asset Verification Techniques

States should enhance investigative skills and request more detailed applicant
information. Information which paints an inconsistent picture of the applicant’s
financial past or which appears questionable, should be investigated further.

Identification and Sharing of Useful Best Practices among States

HCFA should continue to promote the sharing of technical assistance among States,
especially asset verification processes, fraud identification techniques, and other
effective procedures that have proven to be predictable and reliable indicators for
States in identi&ing undisclosed, concealed or transferred assets.

AGENCY      COMMENTS

The HCFA concurs with our recommendations to promote better asset verification
among State Medicaid agencies. At the same time, the agency notes the limitations of
the study, including lack of information on what practices are most effective, limited
discussion of the Income Eligibility Verification System, and timing of data collection.
We generally agree with HCFAS comments. Our goal was to obtain a preliminary
description of what States were doing to come to grips with what is essentially a very
complex administrative problem. It ~eems to us, though, that some States were doing
more than others and that they could well learn from one another how to approach
this situation. The HCFA also provides suggestions and ideas about practical
problems that are likely to be encountered in implementing the recommendations.
We encourage the reader to carefully review all of HCFAS comments which are
included in their entirety in Appendix A. We have made several revisions to our
 report in response to them.




                                             ii
                    TABLE                    OF CONTENTS


                                                                                                                PAGE


EXECUTIVE      SUMMARY


INTRODLK7’H0          N. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


Readily Available Asset Verification Sources                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


HCFAin    Partnership with States           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


RECOMMENDATIONS                 ... ... ............... .... .......... . .... ...                                        6


APPENDI.X A       AGENCY          COMMENTS                . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   A-1

                          INTRODUCTION


PURPOSE

To describe States’ Medicaid long term care eligibility systems, asset verification
processes and their fraud referral techniques, and identify potential vulnerabilities   in
these systems.

BACKGROUND

Eli@ili~   for Medicaid Long Term Care

Each State has its own Medicaid rules and provisions governing Medicaid long term
care eligibility. These include the guidelines and limitations established by Part 430 of
“Grants to States for Medical Assistance Programs” in Title XIX of the Social Security
Act and implementing Medicaid eligibility regulations (42 Code of Federal Regulations
430).

Medicaid coverage of long term care is intended for those individuals with inadequate
resources to provide for themselves. As such, persons with substantial assets are not
eligible. However, in determining eligibility for Medicaid long term care, States may
count only income and assets that are available to the applicant or beneficiary, i.e.,
those funds under the applicant’s control. Certain assets and resources (which can
often be of any value) are exempt, including the home (in many cases), burial policies,
small savings accounts, and funds to maintain the spouse in the home. There is also a
provision for coverage of persons with a higher dollar amount of assets who have
incurred long term care expenses. Once these individuals have depleted their excess
resources, they may qualify for Medicaid. In addition, they must also reduce their
excess income each month in order to remain eligible.

Because of these rules, some individuals may be motivated to transfer their assets to
other family members to avoid the requirement to use them to finance their long term
care needs.

METHODOLOGY

Mail Survey

The inspection was conducted in two phases. In phase one, we conducted a mail
survey of the 50 State Medicaid agencies. Topics addressed include eligibility policy,
asset verification, Medicaid beneficiary fraud referrals, estate recoveries by type and
amount, Medicaid liens, death and spousal information, and trusts and other influences
on estate recovery. While the survey was comprised of many closed-ended questions,
we also used some open-ended questions that provided more in-depth information to
explain and expand upon close-ended responses.


                                              1

Thesumeys were submitted to State Medicaid agencies in October 1993. We received
our final State responses in late May 1994.

Five State Sample

In phase two, we selected a judgmental sample of five States based on the    information
obtained from phase one. We chose Massachusetts, Minnesota, Missouri,       Oregon and
Wisconsin because of information completed on their surveys. We visited     each State
to conduct intetiews with State Medicaid agency staff and State Medicaid     fraud
investigators. We used questionnaires to follow up on responses reported    in the
surveys.

Anazysis

The inspection team summarized and tabulated the responses to all the survey
questions. The responses were quantified to determine such issues as how many State
Medicaid agencies have eligibility verification programs to identify and prevent
transfers of assets, the outcomes from these identification systems, how many States
make Medicaid fraud referrals, what those referrals entail, and whether States have
fraud penalties and hotlines.

Stop

This report is one of two related national reports. An earlier companion repofi
described States’ efforts in implementing Medicaid long term care estate recovery
programs.

We conducted our review in accordance with the Standar& for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                           2

                                FINDINGS


Most States Rely Only on Readily Available Sources for Asset Verification

We found that nearly all States verify checking and savings account amounts, pay
stubs, and insurance policies of the Medicaid applicant. Most States also verify
Certificates of Deposit, Individual Retirement Accounts and other investments by
directly contacting banks and other financial institutions. Some States, however, use a
variety of methods to verify financial information (See chart below for States’
self-reported techniques.)




When inquiring why State techniques vary, a major reason given by Medicaid eligibility
staff (often referred to as Medicaid caseworkers) was that workloads do not permit
adequate time to effectively ascertain the extent of all potential assets of a Medicaid
applicant. Types of hidden or unreported assets or resources include bank accounts,
Certificates of Deposit, or stocks and other financial investments.

 While there is a Federal mandate for States to implement and operate IEVS, whereby
 States are required to conduct computer matches with State and federal agencies to
 verify reported income and resource (asset) information, States vary in abilities and


                                            3
commitment to match with all of the required data sources. States often do not use
all of the data match information because of State perception of the ineffectiveness of
some IEVS data matches and shrinking State budgets and resources. These findings
corroborate our July 1994 report “Reforms Are Needed in State Income and Eligibility
Verification Systems, ” 0EI-06-92-OO080. That report addresses issues with State IEVS
and makes recommendations for improving the efficiency of the IEVS requirements.
A Federal IEVS interagency work group is working with the OIG and States to
implement these recommendations.

In addition, 44 States utilize the IRS tape match. Five,&  ~,t@&e States say that it’s
effective, 27 say that it’s somewhat effective or of limitei$l%$he, while 9 States say it’s
ineffective. Three States did not respond. At least one-fburth of the States report
that the information is too old to be useful.

Thirty States have Medicaid or general fraud hotlines at the State or county level
which individuals may call to report an applicant who may have transferred, hidden or
sheltered assets. Although only two States routinely check applications against hotline
complaints, these hotlines may facilitate an initial investigation to verify the validity of
a possible transfer or concealment. Almost one-half of the States said that leads and
tips from relatives or neighbors are sometimes effective in discovering unreported
property or assets of a Medicaid long term care applicant.

State Medicaid applications usually have a generic fraud statement explaining possible
penalties for intentional concealment or misreporting of resources. An example is
shown below.

       “Section 1128 of the Social Securi~ Act (as amended by Public Law 100-93)
       provides Federal penalties for jiaudulent acts and false reporting in connection
       with my application for or receipt of Medicaid benefits. I may be prosecuted in
       Federal Court for deliberate statements which I know to be false and which affect
       my eligibility for any benefit or payment under the Medicaid program. I may also
       be prosecuted for concealing or failing to disclose any event of which I have
       knowledge which affects my right to any benefit or payment... ”

Caseworkers explain penalty provisions during the standard applicant intewiew

process. Thirty-eight States have Medicaid long term care fraud penalties for the non-

reporting of resources; 12 do not. All States have general statutory penalties for theft.

                                                                                               h.
Prosecution of medical assistance fraud on the part of the applicant/beneficiary occurs
in less than one percent of cases. During our onsite visits, we learned that prosecuting
a Medicaid beneficia~’s fraudulent activity is a very low priority. This is due in part
to consideration of the applicant’s age, the difficulty of proving intent, and the low
dollar amounts involved.




                                              4

HCFA Has Worked in Partnership with State Medicaid Agencies to Improve Asset
Verification

The HCFA has taken responsibility to assist States in improving asset verification. In
November 1994, HCFA released a resource guide for States in collaboration with the
American Public Welfare Association. The HCFA has also conducted numerous
training conferences with Medicaid State representatives.

The HCFA has actively monitored States’ activities and progress in identifying assets
and improving asset verification. The HCFA plans to continue to survey States and
identify and share best practices of asset verification.




                                           5

                   RECOMMENDATIONS


HCFA should continue to work in partnership with States to promote:

Comprehensive   Asset Verification Techniques

Although most States verify checking and savings account information, some States are
not going beyond this basic analysis. States should enhance investigative skills and
request more detailed applicant information. For example, Departments of Motor
Vehicles, employer identification numbers, Veteran’s Affairs offices and other local
avenues are excellent resources.

During the intake process, eligibility staff should always ask long term care applicants
about the existence of any trusts, annuities, burial policies, funeral plans and business
partnerships. Gathering a more comprehensive synopsis of an applicant’s financial
background is beneficial. Information which paints an inconsistent picture of the
applicant’s financial past or which appears questionable should be investigated further.

Identification and Sharing of Useful Best Practices Among States

HCFA should continue to promote the sharing of technical assistance among States,
especially asset verification processes, fraud identification techniques, and other
effective procedures that have proven to be predictable and reliable indicators for
States in identifying undisclosed, concealed, or transferred assets.

Asset verification, at its best, should be exhaustive. The process of identifying possible
hidden or illegal transfers of assets is a critical step in preventing Medicaid long term
care eligibility fraud. Although asset verification can be an arduous task for Medicaid
caseworkers, it is an essential part of the eligibility process that should not be
overlooked.

The HCFA should ensure that States utilize the most efficient and practical methods
when performing asset verification. To uncover undisclosed, concealed or transferred
assets requires considerable attention to minute details of a Medicaid applicant’s
financial and property holdings.

AGENCY     COMMENTS

The HCFA concurs with our recommendations to promote better asset verification
among State Medicaid agencies. At the same time, the agency notes the limitations of
the study, including lack of information on what practices are most effective, limited
discussion of the Income Eligibility Verification System, and timing of data collection.




                                             6

We generally agree with HCFA’S comments. Our goal was to obtain a preliminary
description of what States were doing to come to grips with what is essentially a very
complex administrative problem. It seems to us, though, that some States were doing
more than others and that they could well learn from one another how to approach
this situation. The HCFA also provides suggestions and ideas about practical
problems that are likely to be encountered in implementing the recommendations.
We encourage the reader to carefully review all of HCFA’S comments which are
included in their entirety in Appendix A. We have made several revisions to our
report in response to them.




                                           7

APPENDIX          A

 AGENCY    COMMENTS




          A-1
‘Jg
.
-.
  “b
   %“,,a
     >
                ,JE?A.i:”,}IEAT    OF IiE.lL~H   & HUMAN    SERVICES
                                                                                         Health Care Financing Admini



                                                                                        Office of the Administrator
                                                                                         Washington,    D.C. 20201



           DATE

           FROM
                                  ‘“’‘“’W.*
                            Bruce C V’ladec
                            Administrator

           SUBJECr          Office of Inspector General (OIG) Draft Report: “Vulnerabilities       in
                            Medicaid Asset Verification,” (OEI-07-92-00882)

           TO               June Gibbs Brown
                            Inspector General


                           We reviewed the above-referenced report which describes States’ Medicaid
                           long-term care eligibility systems, asset verification processes and their
                           fraud referral techniques, and identifies potential vulnerabilities in these
                           systems. Attached are our com.ment.s on the report findings.

                           Thank you for the opportunity     to review and comment   on this report.

                           Attachment




                                                      A-2
            Comments   of the Health Care Financing Administration (HCFA}

                          on Office of Inspector General (OIGj

              Draft Repofi “Vulnerabilities in Medicaid Asset Verification,”

                                    [OEI-07-92-00882~



OIG Recommendation

HCFA should continue to work in partnership with States to promote comprehensive

asset verification techniques; establishment of Medicaid fraud hotlines and penalties; and

identification and sharing of useful best practices among States.


HCFA Res~onse

We concur with the report recommendation as it offers very basic suggestions for

improvingthe efficiency of State Medicaid programs.


HCFA has continued to work with States to encourage asset verification by pointing out

that good verification at the time of Medicaid application results in Medicaid coverage

for those who are tn.dy eligible. In addition, some asset verification is required by

legislation such as the Lncome and Eligibility Verification System (lEVS) which requires

States to conduct matches with the Lptemal Revenue Semite (IRS), the Social Security

Administration (SSA), and State wage and unemployment compensation agencies.


Even with Federal mandates for asset verification, when State budgets and staffs are

shi-inking, States often cut comers in the eligibility verification process. For example, if

a State conducts IEVS matches, but fails to verify the leads. identified in the match, an

incorrect eligibility dete~ination  could result. Pmother obstacle to resource verification

is that Federal regulations require that States process a Medicaid application within

45 days. Bank verification often takes more than”45 days so States will often put the

applicant on the Medicaid rolls at the end of 45 days and not utilize the bank’s

infofiation when it arrives. lvfany States also limit the number of asset verifications

because financial institutions require reimbursement.


Data based on Medicaid Eligibility Quality Control reviews indicate that incorrect

resource development continues to be the major cause of dollar error. However, the

number of transfers of resource case errors that effect the error rates is very small. So,

while transfer cases continue to be a slight problem, they do not significantly effect the

total number of resource errors.


We also note that one of the most effective techniques for asset verification of ap#cants

for long-term care is the use of eligibility staff who specialize in long-term care cases.

Some States find it very cost-effective to provide special training and even higher salaries

for workers who can become knowledgeable about the kinds of assets likely to be owned

but not reported by long-term care applicants.





                                            A-3



                                                               .
Page 2

In general, the report fails to distinguish between two distinct aspects of the Medicaid
program: State asset verification activities, which affect all Medicaid applicants/     -
recipients; and asset policies affecting only persons seeking Medicaid for their long-term
care expenses (specifically, m ies regarding uncompensated transfers of assets and
recoveries from estates of deceased long-term care recipients).

Activities that the report recommends for all States -- establishing Medicaid fraud
hotlines, and more extensive data matching with other information sources -- typically
apply across the board, not just to persons seeking assistance for long-texm care. 1%e
recommendations     are not persuasive because they are not accompanied by any detailed
descriptions beyond the number of States that use the techniques, nor is any evidence
given as to the effectiveness for either all Medicaid applicants or the subset of people
seeking long-term care assistance. In fact, the report notes that while three in five States
have a fraud hotline (page 4), only two States identified hotlines as a source that they
actually use (page 3), strongly suggesting that hotlines are not very effective. If, on the
other hand, hotlines are inexpensive, they may nevertheless be cost-effective even if they
provide leads in just a few cases. If this is the case, the report would be more effective
by saying SO.

The report also recommends that HCFA work to ensure that all States establish
penalties for false reporting in connection with a Medicaid application. We note several
problems with this recommendation.      Firs~ the statntory citation provided in the report
is no longer valid. Section 1909 was amended and redesignated as section 1128 of the
Social Securi~ Act by public Law 100-93, the 1987 antifraud amendments.         Second, this
statite provides for Federal prosecution of people who misrepresent information about
themselves. State penalties are permitted at the option of the State but only to persons
who have been convicted under these provisions. Nothing in this Ianguage suggests that
such penalties may be applied only against long-term care applicants. Third, as the
report notes, such cases are seldom pursued because of the expense of prosecution
relative to the dollars involved. me report should note whether the States that have
such penalties think they are worth having because of the detement effect. Finally, the
report would be clearer if it included a brief description of how fraud penalties and
Medicaid rules on transferred assets and estate recoveries differ from, and cornplemen$
each other.

Finally, we note that the sumey of States was conducted shortly after the effective date
of the Omnibus Budget Reconciliation Act of 1993 provisions effecting transfers of
assets and estite recoveries. ~is causes us to question whether State responses from
this unstable, transitional period of ttie accurately reflect today’s circumstances.




                                            A-4



                              .-.     .-

Page 3

Technical Comments

Page i - Background - This section includes a synopsis of the procedures for transferring
assets in order to meet the Medicaid income and resource requirements.         However, the
synopsis fails to point out that individuals who transfer assets for less than fair market
value may be subject to certain penalties in the form of denied Medicaid coverage for a
certain period of time (i.e., a penalty period).

The penalty period is determined by first ensuring that the transfer of assets for less than
fair market value took place within the look-back period. The look-back period is the
period of time. during which a penalty for transferring assets for less than fair market
value can be asseised and can range from 36 to 60 months. Penalties cannot be assessed
for transfers tald.ng place before this period.

Provided a transfer of assets took place during an individual’s look-back period, a
penal~ period is calculated by taking the value of all assets transferred for Iess than fair
market value and dividing it by the average monthly cost to a private patient for care in
a nursing facili~ in the State.

The above comment      also applies to the background section on page 1.

Page ii - Last Findin g - There should be a reference in this section to the Federal
mandate for States to use IEVS for veri&ing reported assets. Suggested language:

         While there is a Federal mandate for States to implement and operate Income
         and Eligibility Verification Systems (IEVS), whereby States are required to
         conduct computer matches with State and Federal agencies to veri& reported
         income and resource (asset) information, States vary in abilities and commitment
         to match with all of the required data sources. States often do not use all of the
         data match information because of State perception of the effectiveness of the
         IEVS data matches and shrinking State budgets and resources. An earlier OIG
         repo~ released in July 1994, addresses the issues with State IEVS and makes
         recommendations for improving the efficiency of the IEVS requirements.      A
         Federal IEVS interagency work group is working with the OIG and States to
         implement these recommendations.

Page ii - First Recommendation     - There should     be a reference to the Federal
requirement to conduct data matches under the         IEVS requirements.    It should be
stressed that States have the flefibility to design   IEVS to target, or selectively use, the
most productive leads for identi~ng unreported         assets.




                                              A-5

Page 4

Page 1- Income Verification - This section is misleading because it seems to indicate
that a State IEVS is for the purpose of identifying beneficiary fraud rather than a tool to
assist States in making more accurate eligibility determinations for all categories of -
applicants and recipients of benefit assistance programs. The requirement that a
beneficiary be terminated from receiving assistance if he/she fails to report all income
and/or resources is a very broad requirement, and not one that is tied to the IEVS
requirements.    As with any violation of reporting assetsdresources, if a beneficiary fails to
report information, benefits will be terminated.

We also believe it would be helpful to include more detailed information about the
IEVS, some of which is included in the July 1994 IEVS report. For example, States.are
required to match with SSA to obtain benefit information with the IRS for unearned
income information, and with the State wage and unemployment agencies for wage and
compensation information. Some of the data matches are indeed found to be mg,re
useful than others, particularly for different categories of beneficiaries. For. example, the
Aid to Families with Dependent Children program would find the wage and
unemployment benefit data matches more effective, while the Medicaid program would
find the IRS and SSA data matches more effective.

‘Through the targeting (selective use) option offered States in the JEVS regulations,
 States can focus the data matches to the most effective matches. While the IRS data
 might be a year old, it is often found useful as simply a “lead” to possible unearned
 income (bank accounts, dividends, real estate sales, etc:}.

Further, the July 1994 IEVS report made recommendations for the I%l!ler!!!!agencies
responsl%le for the lEVS regulations to make adjustments to the requirem@.s that
would enhance State flexibility and efficiency of the IEV!3.

Pazes 3-4- We agree that States’ techniques vary widely for asset and resource
verification because of workload constraints and priorities. States have to adjust
workload priorities to address verification techniques that have proved to be effective.
States have the experience and knowledge to base any priorities established to the most
productive methods. States are given the flexibility by the FederaI I13VS regulations to
target followup efforts to the most productive sources. We strongly believe if States use
the flexibility currently offered under the IEVS requirements to focus on productive
folIowup infor&ation, more errors can be prevented.

States need to analyze and target the use of information obtained through the IEVS,
particularly leads from the IRS and SSA for long-term care. Our contact with States, in
the majority of cases, indicates these leads are useful and that States want more access
to Federal data sources. The statements made on page 4 are too vague to be useful.




                                            A-6

Page 5

While there is some question about the usefulness of some of the IEVS data sources;
e.g., the Beneficiary Earnings and Data Exchange with the SSA and the IRS data match
for some categories of beneficiaries, other data matches are routine, required data
matches for the States; e.g., the SSA benefit match and the wage and unemplopnent
compensation matches.

This report seems to imply that States do not conduct routine data matches with the
lEVS components. We do not believe that the fiidings and recommendations of the
July 1994 OIG report on 155VSreflect this. Those findings and recommendations were
directed to making the existing data match requirements more useful and efficient for
States.

We also want to add that the IEVS interagency work group, with the Administration for
Children and Families as the lead componen4 is currentIy working with the OIG and
%tates in assessing the modifications needed to make the INS more cost-effective and
efficient. The work group has also been worting with five pilot States to access and
analyze the usefulness of Veterans’ Administration benefit data. States seem encouraged
by the pilot results, and these data should be especially helpful for eligibfity
determinations for long-texm care beneficiaries.




                                          A-7

